WR-B-99-01




         AUDIT
        REPORT                 TRANSPORTATION SAFEGUARDS
                                  DIVISION COURIER WORK
                                 SCHEDULES AND ESCORT
                                  VEHICLE REPLACEMENTS




                                            DECEMBER 1998


  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                              December 4, 1998



MEMORANDUM FOR THE MANAGER, ALBUQUERQUE OPERATIONS OFFICE

FROM:                 Lawrence R. Ackerly
                      Regional Manager, Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Transportation Safeguards Division Courier Work
                      Schedules and Escort Vehicle Replacements"

BACKGROUND

The Office of Inspector General's (OIG) April 1995 report, Audit of Transportation Safeguards Division
Couriers' Work Schedules, found that couriers received too much overtime and incurred too much
unproductive time. This finding occurred because the Transportation Safeguards Division (TSD) employed a
traditional work schedule that did not meet the demands of the job. The report recommended implementing an
alternative work schedule that corresponded more closely to the couriers' actual work requirements.
Management agreed to conduct a comparative analysis of work schedules to evaluate potential savings. The
objectives of this audit were to (1) follow up on actions taken as a result of the OIG's previous report,
(2) determine if courier work schedules are cost effective, and (3) determine the cost effectiveness of escort
vehicle replacements.

RESULTS OF AUDIT

Since April 1995, TSD has enhanced management controls but did not implement alternative work schedules.
Consequently, the couriers still incurred more overtime and unproductive time than necessary. Implementation
of an alternative work schedule could reduce overtime by as much as $1.7 million annually and also reduce
unproductive time. Further, TSD also needs to examine Southeast section's staffing in relation to the workload
requirements in the respective vicinity. Also, TSD erroneously paid couriers about $130,000 annually for time
spent commuting between their temporary duty station and lodging. We identified a potential problem with
replacements of escort vehicles on which management has initiated corrective actions. Therefore, this issue
was detailed in the "Other Matters" section of the report. We recommended (1) implementing an alternative
work schedule for couriers which would achieve savings in overtime and unproductive time, while efficiently
and cost effectively fulfilling TSD's mission; (2) reexamining and adjusting the staffing level of each courier
section in relation to the workload requirements in the area; and (3) discontinuing payment for travel time
between courier lodging and temporary duty stations.

MANAGEMENT REACTION

The Albuquerque Operations Office agreed with our findings and recommendations.
TRANSPORTATION SAFEGUARDS DIVISION COURIER WORK
SCHEDULES AND ESCORT VEHICLE REPLACEMENTS

 TABLE OF
 CONTENTS

                 Overview

                 Transportation Safeguards Division Courier Work
                 Schedules and Escort Vehicle ........................................ 1


                 Courier Work Schedules


                 Details of Finding............................................................ 3


                 Recommendations and Comments ................................. 6


                 Wages for Commuting


                 Details of Finding............................................................ 8


                 Recommendations and Comments ................................. 9


                 Other Matters


                 Details........................................................................... 10


                 Appendices


                 Scope and Methodology ............................................... 11


                 Management's Response ............................................. 13
OVERVIEW
INTRODUCTION AND   The Albuquerque Operations Office (Operations Office) established the
OBJECTIVE          Transportation Safeguards Division (TSD) in 1975. In Fiscal Year (FY)
                   1997, TSD employed 237 nuclear material couriers who act as Special
                   Agents in transporting nuclear weapons, components, and material for
                   the Department of Energy (DOE). The couriers are divided into three
                   sections located in Albuquerque, NM (Albuquerque); Amarillo, TX
                   (Pantex); and Oak Ridge, TN (Southeast). The sections are further
                   divided into units consisting of about 30 to 37 couriers. The Pantex
                   section has 3 units, whereas the Albuquerque and Southeast sections
                   have 2 units each.

                   In April 1995, the Office of Inspector General (OIG) issued a report,
                   Audit of Transportation Safeguards Division Couriers' Work Schedules
                   (WR-B-95-05), that concluded that couriers received too much overtime
                   and incurred too much unproductive time each pay period. The
                   principal reason for that finding was that TSD used an 8-hour, 5-day,
                   40-hour a week work schedule (traditional schedule) that did not meet
                   the demands of the job. The report recommended that TSD implement
                   an alternative work schedule that corresponded more closely to the
                   couriers' actual work requirements. Management agreed to conduct a
                   comparative analysis of work schedules to evaluate potential savings.

                   The objectives of this audit were to (1) follow up on actions taken as a
                   result of the OIG's previous report, (2) determine if courier work
                   schedules are cost effective, and (3) determine the cost effectiveness of
                   escort vehicle replacements.

                   In response to the prior audit, TSD enhanced management controls over
CONCLUSIONS AND    the traditional schedules but did not implement an alternative work
OBSERVATIONS       schedule for the couriers. The improved management controls reduced
                   average overtime from 39 to 27 hours per pay period and reduced
                   unproductive time from 22 to 13 hours per pay period. Despite these
                   improvements, couriers still received more overtime and incurred more
                   unproductive time than necessary. Our analysis showed that Federal
                   regulations allow for the use of alternative work schedules to fit the
                   demands of the job where traditional schedules are inefficient or
                   ineffective. It also showed that if TSD used an alternative schedule, the
                   couriers' work would more closely fit the demands of the job. Thus, the
                   costs of overtime could be reduced by as much as $1.7 million annually
                   and unproductive time would also be reduced.




Page 1                              Transportation Safeguards Division Courier Work
                                    Schedules and Escort Vehicle Replacements
         Courier work requirements in the vicinity of the Southeast section has
         declined over the years without a corresponding reduction in the number
         of couriers at this location. TSD needs to further examine the Southeast
         section's staffing in relation to the workload requirements in that area.

         Additionally, TSD erroneously paid couriers for time spent commuting
         between their temporary duty station and temporary lodging. According
         to the Office of Personnel Management (OPM) and Comptroller General
         Decisions, time spent commuting should not be considered hours of
         work. Payments of such costs total about $130,000 annually.

         Between December 1995 and February 1996, TSD acquired 30 escort
         vehicles and 14 of these remained virtually unused as of July 1998. The
         criteria used by TSD for vehicle replacement was date purchased rather
         than a combination of time and mileage on the vehicle. The vehicle
         tracking system used by TSD did not include the date vehicles were
         actually put into service. Subsequently, TSD modified its tracking
         system to include date-placed-in-service and has agreed to modify its
         replacement criteria. The reason for the delay in placing the last 14
         vehicles in service was because of a security modification needed on all
         vehicles. A more detailed discussion of this subject is included in the
         "Other Matter" section of the report.

         Since the first finding is a repeat finding, the OIG believes that it
         represents a material internal control weakness within DOE that should
         be considered when preparing the yearend assurance memorandum on
         internal controls.




                                             _________/s/__________________
                                          Office of Inspector General




Page 2                    Transportation Safeguards Division Courier Work
                          Schedules and Escort Vehicle Replacements
COURIER WORK SCHEDULES
Excessive Overtime   When TSD couriers prepare for or embark upon a trip, train to maintain
And Unproductive     proficiency as a Special Agent, or perform other assigned duties they are
Time                 considered to be performing productive work. Conversely, when
                     couriers are not performing one of the duties described above, they are
                     considered to be unproductive. When a courier is assigned to a trip, it
                     may last from 1 to 14 days with the average being about 4 days. For all
                     hours of duty beyond 8 hours per day, the courier is paid overtime. If
                     the courier leaves or returns from a trip on a weekend or holiday, time is
                     likewise recorded as overtime. Therefore, a degree of overtime is
                     expected to occur in performing the job of a TSD courier.

                     Although TSD reduced overtime and unproductive time since our
                     previous audit, its couriers still earn more overtime and incur more
                     unproductive time than necessary. Currently, those couriers who
                     routinely traveled earned an average of 27 hours of overtime per pay
                     period (every 2 weeks) and were paid for about 13 hours of
                     unproductive time during the same period of time. In total, TSD
                     incurred about 180,000 hours of overtime and about 73,000
                     unproductive hours in FY 1997.

                     The couriers in the Southeast section generally earn more overtime per
                     trip and incur more unproductive time per pay period than their
                     coworkers in the other two courier sections. That occurs in spite of the
                     fact that the Southeast couriers spend only about 39 percent of their
                     time on trips compared to almost 60 percent for the other two sections.
                     Couriers assigned to the Southeast section took fewer trips because
                     most destinations are in Western states which are more easily accessible
                     to the other 2 courier sections. When the Southeast couriers are
                     assigned, however, these trips last longer, which in turn increases the
                     amount of overtime earned per trip. Because the Southeast couriers go
                     on fewer trips, they also incur more unproductive time -- 18 percent
                     versus 10 percent for the other sections.

                     A Review Group commissioned by Defense Programs also found that
                     TSD couriers had extensive overtime. Its final report showed that
                     couriers boost their earnings by 60 percent over their base salary with
                     overtime pay. Consequently, the Review Group felt that overtime use
                     should be examined.




Page 3                                                                    Details of Finding
Alternative Work      DOE Orders require Federal managers to take systematic and proactive
Schedules Available   measures to establish appropriate management controls. Developing
                      work schedules that reduce overtime and unproductive time and that
                      match work requirements to human resources are ways managers can
                      fulfill these responsibilities. In fact, Federal regulations allow managers
                      to use alternative work schedules for jobs when traditional schedules are
                      inefficient and ineffective. As part of an effort to publicize alternative
                      work schedules, OPM issued a handbook which described various types
                      of work schedules. These alternative work schedules vary in their
                      degree of flexibility. The flexibility ranged from those that required
                      employees to work during certain bands of time to those that only
                      required employees to work 80 hours in a pay period without limits on
                      the number of hours each day.

                      TSD continued to use the traditional 40-hour per week work schedule
Traditional Work      for couriers and paid its couriers overtime when they worked more than
Schedules Do Not      8 hours a day or when they worked on weekends. Thus, the job
Fit Requirements      requirements of a courier did not closely match the work schedule used
                      by TSD. For instance, if couriers depart on a 4-day trip on Wednesday,
                      they were still expected to report to work on Monday and Tuesday even
                      if they did not have any work assignment. As a result, their time on the
                      first 2 days of the week may be unproductive, yet later in the week, they
                      could earn overtime for the hours that exceeded 8 per day.

                      Since the courier's primary responsibility is focused on trips involving
                      the transport of nuclear materials, courier work hours should be
                      centered around the trip rather than a traditional work schedule.
                      Further, since trips are generally scheduled 2 weeks in advance, TSD
                      could plan couriers schedules to minimize overtime and unproductive
                      time if an alternative work schedule was used.

                      Among the possible alternative work schedules available are maxiflex,
                      variable day, and first-40. The maxiflex system is the most flexible
                      alternative because it allows employees to work 80 hours in less than 10
                      days every 2 weeks. The variable day system allows employees to work
                      40 hours in a week and vary the length of their day within limits.
                      Finally, the first-40 system allows employees to be paid straight time for
                      the first-40 hours they work and overtime for all additional hours.
                      However, the first-40 option only produces substantial savings if
                      couriers are required to come to work only when they have productive
                      work scheduled. We discussed these options with a work schedule
                      researcher and were told that the right work schedule can improve



Page 4                                                                      Details of Finding
                        general job satisfaction and productivity, whereas inappropriate work
                        schedules can be detrimental. According to the researcher, the right
                        work schedules can improve employees' quality of life. Also, in
                        responding to our draft report, Operations Office management agreed
                        that the implementation of an alternative work schedule has the potential
                        to reduce the amount of overtime and further reduce unproductive time.

                        Another factor which contributed to the excessive overtime and
                        unproductive time was that the number of couriers assigned to the
                        Southeast section had not been fully adjusted to fit the workload
                        requirements. The workload for couriers in proximity of the Southeast
                        section has declined over the years. TSD records show that over the last
                        2 years, couriers traveled to only 7 sites east of the Mississippi River and
                        21 sites west of the River. Of 28 travel destinations in FY 1997, 9 are
                        over 2000 miles from the Southeast section. Due to distances from
                        travel destinations, Southeast couriers earned the most overtime per trip
                        -- an average of almost 700 hours per trip versus less than 600 hours per
                        trip for the other 2 sections. TSD has made some efforts to correct this
                        situation. For example, over the past year, TSD transferred 9 couriers
                        from the Southeast section to the Albuquerque section. Further courier
                        reductions in the Southeast section are planned by the end of FY 2000.
                        Although further reductions are planned, TSD needs to more
                        aggressively assess workload requirements in the vicinity of the
                        Southeast section to ensure efficient staffing of this section.

                        We analyzed the use of different alternative work schedules and
                        determined that if the maxiflex schedule is used, TSD can save as much
                        as $1.7 million annually in overtime pay and reduce the amount of
Alternative Schedules   unproductive time. Savings are also achievable with other schedules but
Can Achieve Savings     not to the same extent. Finally, TSD may achieve reductions in overtime
                        and unproductive time through realignment of couriers among the 3
                        courier sections.

                        TSD officials expressed concern that if an alternative schedule is used,
                        couriers may not use their annual and sick leave to avoid unproductive
                        time. Thus, there may be a need to hire additional personnel. We
                        examined this issue and found some basis for management's concern.
                        However, we believe that the need for additional personnel will be
                        minimal. Instituting an alternative work schedule that guarantees 80
                        hours over a 2-week period based primarily on productive work should
                        significantly reduce unproductive time.




Page 5                                                                         Details of Finding
                  hours over a 2-week period based primarily on productive work should
                  significantly reduce unproductive time.

RECOMMENDATIONS   We recommend that the Manager, Albuquerque Operations Office,
                  require the Director of TSD to:

                  1. Implement an alternative work schedule for couriers which would
                     achieve savings in overtime and unproductive time while efficiently
                     and cost effectively fulfilling the TSD mission.

                  2. Reexamine and adjust the staffing level of each courier section in
                     relation to the workload requirements in the area.

                  The Operations Office concurred with the recommendations and stated
MANAGEMENT
                  that TSD has made progress in reducing the amount of overtime and
REACTION
                  unproductive time.

                  In responding to the first recommendation, the Operations Office noted
                  that TSD has made progress in reducing the amount of overtime and
                  unproductive time. Further, the implementation of an alternative work
                  schedule (1) has the potential to reduce the amount of overtime and
                  further reduce unproductive time and (2) is in line with governmental
                  initiatives in the area of family friendly work schedules and comments
                  received from Headquarters Defense Programs. The Operations Office
                  has tasked a compensation team with the development and
                  implementation of an alternative work schedule. The compensation
                  team will require a 9-month period to develop the "right" work
                  schedule. TSD is also evaluating a 6-month trial work and training
                  schedule and a rotational duty schedule to determine if unproductive
                  time can be further reduced.

                  In responding to the second recommendation, the Operations Office
                  stated that TSD has been proactive in this area by continually evaluating
                  their resource requirements and will continue to evaluate and adjust
                  manpower as necessary. TSD plans to further reduce staffing of the
                  Southeast section to one unit by the end of FY 2000.

                  The Operations Office partially concurred with the estimated savings
                  saying that the final decision on which work schedule is most suited for
                  implementation will ultimately determine the overall cost savings.




Page 6                                             Recommendations and Comments
                   The Operations Office also provided comments on unproductive time
                   which are addressed below.

AUDITOR COMMENTS   Management's response meets the intent of the recommendations. We
                   applaud management's decision to assign a team to develop and
                   implement a new alternative work schedule. We recognize that
                   alternative work schedule development is a time consuming process and
                   believe that 9 months is reasonable. The results of TSD's 6-month and
                   9-month evaluations should be closely coordinated to determine the
                   most efficient and cost effective schedule to achieve TSD's mission.

                   We changed the wording of the example in the first full paragraph on
                   page 4 to "may be unproductive" to avoid any implication that the first
                   two days of the week would always be unproductive. This is an
                   example of what could happen.

                   In rechecking the number of hours of unproductive time per pay period,
                   source documents showed that this average is about 13 hours per pay
                   period or about 6.5 hours per week. The report has been changed to
                   reflect the new figure. The Operations Office cited two studies in an
                   attempt to explain unproductive time. We believe that 73,000 hours of
                   paid unproductive time is more than should be incurred. The number of
                   hours of unproductive time identified during the audit did not include
                   paid administrative leave provided by TSD when a trip ends after
                   midnight. Better scheduling and better planning are the key ingredients
                   to a more efficient operation.




Page 7                                              Recommendations and Comments
WAGES FOR COMMUTING
Wages For Travel To      TSD paid couriers for the time spent traveling to and from temporary
And From Temporary       lodging locations. Couriers may travel up to 36 hours before having an
Duty Locations           overnight rest stop. Prior to making an overnight rest stop, the couriers
                         will secure their vehicles and cargo at a Government location. This
                         should be the end of the couriers' workday. However, TSD included the
                         travel time to and from the temporary lodging as part of the workday.

                         Travel to and from temporary duty locations is similar to commuting to
                         and from an employees' home. Title 5 of the U.S. Code states that
                         commuting time between lodging and temporary duty locations is not
                         duty time unless it (1) involves the performance of work, (2) is under
                         arduous conditions, or (3) could not be scheduled or controlled
                         administratively. The Comptroller General of the United States has also
                         ruled that, in order to be arduous, the travel must be over unusually
                         adverse terrain during severe weather conditions, or to remote barely
                         accessible facilities by foot, horseback, or truck. Furthermore, neither
                         the time at which travel is performed nor the amount of time spent
                         traveling makes the conditions arduous.

                         TSD personnel pointed out that the payment of travel time to and from
Paying For Travel Time
                         temporary lodging is a long-standing practice. Furthermore, TSD
Is A Long Standing
                         personnel referenced an April 1976 Federal Personnel Manual System
Practice
                         Letter as support for this practice. In examining TSD's documentation,
                         we found that letters issued by both the Energy Research and
                         Development Administration in July 1976 and the United States Civil
                         Service Commission in March 1977 related to the issue. Both letters
                         stated that travel to and from temporary lodging would not be
                         considered hours of work and would be equivalent to commuting to
                         work. Despite these rulings, TSD continued to pay couriers for the time
                         spent traveling to and from temporary lodging.

                         As a result of TSD's practice of paying for this commuting time, TSD
Funds Unnecessarily      unnecessarily overpaid its couriers by about $130,000 annually.
Spent                     to a more efficient operation.




Page 8                                                                       Details of Finding
RECOMMENDATION     We recommend that the Manager, Albuquerque Operations Office,
                   require TSD to discontinue paying couriers for travel time between their
                   lodging and temporary duty locations.

MANAGEMENT         The Operations Office concurred with the recommendation and cost
REACTION           savings. TSD will brief all of its personnel on the finding that the policy
                   of paying for commuting time is not allowable. The practice will be
                   discontinued by the week of November 12, 1998.

AUDITOR COMMENTS   Management's comments are responsive to the recommendation.




Page 9                                               Recommendations and Comments
OTHER MATTERS
                Through its normal vehicle replacement process, TSD purchased and
                took delivery of 30 escort vehicles between December 1995 and
                February 1996. As of April 1998, however, 14 of the 30 vehicles had
                neither undergone required modifications nor been placed into service.
                During the almost 2.5 years since delivery of the 14 vehicles, each
                vehicle accumulated less than 1 mile per month.

                The 14 new escort vehicles were not modified for service in a timely
                manner. This delay was in part caused by a decision in 1996 to perform
                a security modification on all existing vehicles, including the new ones.
                Consequently, TSD did not start modifying the 14 vehicles until May
                1998. The last few of the 14 vehicles are scheduled to be placed into
                service in October 1998 -- almost 3 years after they were received.

                In researching this matter, we determined that TSD was using only date
                purchased as a basis for purchasing replacement escort vehicles. TSD's
                planning guidance in effect in December 1995 called for replacing escort
                vehicles every 4 years or 150,000 miles. (The guidance has since been
                revised to 6 years or 200,000 miles.) We examined the age and mileage
                of the escort vehicles replaced by 1996 Ford vans and found that none of
                the vehicles met the mileage threshold. We discussed this with TSD
                officials and were told that, in fact, they only considered the age of the
                vehicles (based on date-of-purchase) and the availability of funds.
                Further discussion showed that TSD's Tracking Assets Inventory and
                Maintenance System did not include the date vehicles are actually placed
                into service. During the audit, TSD modified its tracking system to
                include date placed-in-service and has agreed to modify its replacement
                criteria. Thus, we are making no recommendations at this time.




Page 10                                                                          Details
Appendix 1
SCOPE         The audit was performed at Transportation Safeguards Division,
              Albuquerque, New Mexico, from March 1998 to September 1998.

METHODOLOGY   To accomplish the audit objective, we:

                 • obtained and examined TSD's First Forty Comparative Study
                   and supporting documentation;

                 • interviewed current and former TSD personnel;

                 • reviewed trip reports, time schedules, and payroll records for the
                   Albuquerque, Pantex, and Southeast courier sections for the
                   period July through September 1997;

                 • interviewed personnel with the Texas Motor Transportation
                   Association; New Mexico Motor Carriers Association; J. B.
                   Hunt Transport, Inc.; Compensation Administration Division,
                   U.S. Office of Personnel Management; Albuquerque Police
                   DOE; Albuquerque Fire DOE; Burlington Northern Santa Fe
                   Railroad; Airline Pilots Association; and Mason & Hanger, Silas-
                   Mason Co. (Pantex Plant);

                 • interviewed a professor of Industrial Psychology, who is the
                   Director of the Ergonomics Laboratory, University of
                   Connecticut, Storrs, CT;

                 • interviewed the president and chief executive officer of Circadian
                   Technologies, Inc., Cambridge MA, and reviewed his report,
                   Development of Criteria to Assess Adequacy of Time Available
                   for Sleep in U.S. Departmemt of Energy Transportation
                   Safeguard Division Courier Trip Schedules;

                 • obtained and reviewed the Department of Energy TSD Review
                   Group's final report, PSR Report 2772; and

                 • reviewed documentation related to the purchase and use of
                   escort vehicles.




Page 11                                                  Scope and Methodology
          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to the
          extent necessary to satisfy the objective of the audit. Because our
          review was limited, it would not necessarily have disclosed all internal
          control deficiencies that may have existed at the time of our audit. We
          did not rely extensively on computer processed data and, therefore, did
          not fully examine the reliability of that data.

          We discussed the findings with TSD managers on September 18, 1998.
          The Operations Office waived the exit conference.




Page 12                                                Scope and Methodology
Appendix 2
 DOEF1325.8


 UnitedStatesGovernment                                            DOEofEnergy
                                                         AlbuquerqueOperationsOffice
 memorandum
       DATE:    October27,1998
   REPLYTO:     TSD
    SUBJECT:    AL’sCommentsontheOIG’sOfficialDraftReport: Audit of TransportationSafeguards
                DivisionCourierWorkSchedulesandEscortVehicleReplacementsA98AL002
          TO:   RayB. Richardson,TeamLeader, AlbuquerqueAudit Group, OIG

                Attachedareourcommentsandpositiononthereportfindingand recommendation.

                Ifyouhaveanyquestionsonthismatter,pleasecontactDebbyMillerat

                (505)845-6692.



                                                       /s/

                                                 BruceG. Twining
                                                 Manager

Page 13                                                               Management's Response
                                           Department of Energy
                                       Albuquerque Operations Office
                                  Position on Office of Inspector General
                                 Official Draft Report of Recommendations
                                Audit of Transportation Safeguards Division
                                          Couriers’Work Schedules


 Recommendation No. 1

 We recommend the Manager, Albuquerque Operations Office require the Director of TSD to implement

 an alternative work schedule for couriers which would achieve savings in overtime and unproductive

 time, while efficiently and cost-effectively fulfilling the TSD mission.



 AL's Position

 Concur.

 The Transportation Safeguards Division (TSD) has made progress in reducing the amount of overtime

 and unproductive time. The implementation of an alternative work schedule has the potential to reduce

 the amount of overtime and further reduce unproductive time. The implementation of an alternative

 work schedule is in line with governmental initiatives in the area of family friendly work schedules and

 comments received from the Headquarters Defense Program independent audit of the TSD.



 The implementation of a new work schedule requires a significant effort on the behalf of the TSD and

 AL Human Resources Division. A compensation team which includes members of both organizations

 has been formed. The development and implementation of an alternative work schedule will be tasked

 to the team which is currently working other courier compensation issues. The development and



Page 14                                                                        Management's Response
 implementation of the alternative work schedule will require extensive research, documentation and

 training. As indicated in the IG report "the right work schedule can improve general job satisfaction and

 productivity, whereas inappropriate work schedules can be detrimental." The compensation team will

 require a nine month period to develop the "right" work schedule.



 Cost Savings:

 Partially Concur.

 The final decision on which work schedule is most suited for implementation will ultimately determine

 the overall cost savings. The projections are based on a review of potential schedules which may not be

 conducive to the efficient operations of the TSD. The estimated cost savings are based on a historical

 statistical sampling that may not accurately depict the actual future savings. The nature of the operation

 is not static. Changes in shipping schedules and the locations involved are dynamic and constantly

 changing. Trip length, training schedules and other dynamics of an operational unit complicate the task

 of anticipated savings.



 TSD is developing a trial work and training schedule which will be more conducive to assignment of

 duties and further reduce the amount of unproductive time. The current system assumes that all units

 are available for all activities to include shipments and training. The TSD is developing a rotational duty

 status for evaluation to determine if unproductive time can be further reduced by identifying when

 personnel will be in training or travel status. The trial schedule will be implemented in December



Page 15                                                                        Management's Response
 1998, and evaluated for effectiveness six months following implementation. Although not measured in

 dollars the reduction of unproductive time will result in savings to the government.



 AL concurs that the potential exists for a savings. Since the projected savings do not include further

 reduction of unproductive time and are based on analysis of historical data, the final savings may not fall

 within the projections



 The TSD will conduct a 6-month study to determine the effectiveness the unit training and work

 schedule and report on the effectiveness of the system in reducing unproductive time. Implementation

 of a new work schedule will show savings in overtime costs which will be documented.



 Recommendation No. 2

 Reexamine and adjust the staffing level of each courier section in relation to the workload requirements

 in the area.



 AL's Position:

 Concur.

 The TSD has been proactive in this area by continually evaluating the resource requirements to

 efficiently manage TSD operations. The TSD will continue to evaluate and adjust manpower as

 necessary.



Page 16                                                                        Management's Response
 Recommendation #3:

 We recommend that the Manager, Albuquerque Operations Office require TSD to discontinue paying

 couriers for travel time between their lodging and temporary duty locations.



 AL’s Position:

 Concur

 The TSD will brief all personnel on the finding by the IG and validation by AL HRD that the policy of

 paying for commuting time is not allowable. The practice will be discontinued by the week of

 November 12.



 Cost Savings:

 Concur



 Report Comments:

 The OIG correctly identifies that “courier work requirements in the vicinity of the Southeastern Section

 has declined over the years without corresponding reduction in the number of couriers at this location”.

 The TSD has recognized this as an issue and has been proactive in this area. The number of units at the

 SCS have been reduced from three units in 1993 to the current two with plans to further reduce to one

 unit. Personnel have been transferred to those units at Albuquerque Courier Section and Pantex Courier

 Section, which were short of personnel. The process will continue based upon the decrease



Page 17                                                                         Management's Response
 in workload, retirements, etc. This is in line with the plan to downsize the section to one unit by the end

 of FY-2000.



 The IG implies in COURIER WORK SCHEDULES paragraph 6, last sentence: “As a result, his time

 on the first 2 days of the week would be unproductive”. This sentence assumes that there will be no

 work performed on the first two days in the week which is not the case.



 The report correctly identifies that management controls have reduced "unproductive" time. According

 to the analysis current "unproductive" time amounts to only five hours per week. The high stress,

 physically demanding positions can not be compared to sedentary office positions where every hour is

 accounted for as productive or unproductive time. According to a sleep study conducted in 1985 by

 Moore-Ede Associates, Inc, "prolonged experience with unusual hours of work makes coping (with

 unusual hours of work) more difficult, rather than less, (i.e., the physiological systems involved do not

 'learn' to cope)." The Courier requires this time to adjust or cope, reported as "unproductive" time, in

 the office setting to recover from the continual travel, and psychologically readjust prior to the next trip

 assignment. A1993 study conducted by the Institute of Aerobics recommended "A schedule allowing

 four (4) days minimum between trips would allow at least two (2) days for training (with one day rest in

 between) at the section." This one day of rest would equate to eight hours vs. the five hours identified

 by the OIG.




Page 18                                                                         Management's Response
                                                                             Report No. WR-B-99-01


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date_________________________________

Telephone________________________________Organization___________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                        following alternative address:


               U.S. Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
